                         U.S. Department of Agriculture

                            Office of Inspector General
                                       Northeast Region




             Audit Report

Animal and Plant Health Inspection Service
Wildlife Services’ Controls Over Hazardous
            Materials Inventory




                               Report No. 33001-05-Hy
                                            July 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:           July 21, 2004

REPLY TO
ATTN OF:        33001-05-Hy

SUBJECT:        Animal and Plant Health Inspection Service, Wildlife Service’s
                Controls Over Hazardous Material Inventory

TO:             W. Ron DeHaven
                Administrator
                Animal and Plant Health Inspection Service

ATTN:           William J. Hudnall
                Deputy Administrator
                Marketing and Regulatory Programs Business Services


This report presents the results of our audit of Animal and Plant Health Inspection Service (APHIS),
Wildlife Service’s Controls Over Hazardous Material Inventory. Our report describes the issues with
accountability for hazardous pesticides and drugs that we identified during our review, as well as the
corrective actions taken by APHIS to improve control over Wildlife Service’s hazardous materials
inventory.

Your response to the official draft, dated June 24, 2004, is included as exhibit C. Additionally, your
response and the Office of Inspector General’s (OIG) position are incorporated into the Findings and
Recommendations sections of the report. Based on your response, management decisions have been
reached on all recommendations except for Recommendations Nos. 1, 2, 4, 6, 7, 11, and 13. Please
follow your agency’s internal procedures in forwarding documentation for final action to the Office of
the Chief Financial Officer. Management decisions for the remaining recommendations can be
reached once you have provided the additional information outlined in the report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective actions taken or planned, and the timeframes for implementation of the remaining
recommendations. Please note that the regulation requires management decision to be reached on all
recommendations, within 6 months of report issuance.


        //s//

ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Animal and Plant Health Inspection Service Wildlife Services’ Controls Over Hazardous
Materials Inventory

Results in Brief                 The objectives of the audit were to: (1) evaluate the Animal and Plant Health
                                 Inspection Service’s (APHIS) accountability and controls over storage,
                                 security, disposal and recordkeeping for hazardous materials in selected
                                 States, and (2) followup on corrective actions reported by APHIS Wildlife
                                 Services (WS) (formerly named Animal Damage Control [ADC]).

                                 The intentional misuse of concentrated pesticides to cause illness or death is
                                 considered to be a “low probability, high impact” event, according to the
                                 Office of the Deputy Under Secretary of Defense (DUSD).1 Pesticides are
                                 toxic substances that are designed to kill living organisms. Toxicity ranges
                                 from very deadly (a taste or drop can kill a human) to practically nontoxic to
                                 people and other animals. Technical guidance issued by DUSD explains that
                                 pesticides may be applied, against their intended use, to the air people
                                 breathe, may adulterate food and water, or may contaminate surfaces or
                                 objects that people contact. Further, pesticides are a potential terrorist tool
                                 and in some cases could be delivered to an unsuspecting population through
                                 delivery systems used in normal pest management operations. Many of the
                                 substances addressed in the DUSD guidance are the same pesticides used by
                                 WS, to include cyanide, strychnine, and zinc phosphide.

                                 Our review determined that WS is unable to fully account for its inventories
                                 of hazardous pesticides and controlled drugs, and that these inventories are
                                 not always stored in a safe and secure manner. This condition exists because
                                 WS management has not established effective management controls over its
                                 inventories to ensure that full accountability and effective safeguarding
                                 measures are in operation. Therefore, hazardous materials remain vulnerable
                                 to undetected theft and unauthorized use, and may pose a threat to human and
                                 animal safety.

                                 In February 2001, we initiated an audit survey that disclosed serious issues
                                 with WS’ accountability for hazardous materials. We issued a Management
                                 Alert in October 2001, in which we recommended that WS establish
                                 management control and accountability over the hazardous pesticides and
                                 controlled drugs used in its programs by revising State office review
                                 procedures and ensuring that all State offices maintain perpetual inventory
                                 records of pesticides and drugs, by documenting transfers of inventory to
                                 applicators, and performing a periodic physical inventory count.
1
    Armed Forces Pest Management Board, Technical Guide No. 7, Installation Pesticide Security, Defense Pest Management Information
    Analysis Center, Forest Glen Section, Walter Reed Army Medical Center, August 2003.



 USDA/OIG-Audit No. 33001-05-Hy                                                                                                   i
                    In responding to our Management Alert, WS officials did not achieve
                    effective management control and accountability over hazardous materials.
                    The WS response required all State directors to conduct an immediate
                    physical inventory of the pesticides and drugs at all locations under their
                    control, and to account for the acquisition, use, transfer, sale, and disposal of
                    these hazardous materials. The State directors were instructed to maintain
                    perpetual inventory records using a standardized form and to revise WS State
                    office program review procedures, to include a periodic review of
                    accountability and control over all hazardous materials. Although the
                    measures taken by WS in response to the management alert represented
                    progress in improving management control over hazardous materials, more
                    work is needed. These measures were insufficient because WS officials did
                    not follow up with onsite reviews and spot checks to ensure if these measures
                    were appropriately implemented, and whether further corrective actions were
                    required.

                    Our followup review of WS operations in New Mexico and Texas, disclosed
                    that because adequate management control over hazardous pesticides and
                    controlled drugs had not been instituted, these materials were neither properly
                    accounted for, nor stored in a secure manner. Weaknesses persisted in the
                    accountability for hazardous substances that present difficulties and
                    complexities in counting, measurement, and disposal. Undetected inventory
                    errors and omissions reduced the reliability of the newly instituted perpetual
                    inventory process and limited its effectiveness as a tool to support
                    administrative control. The Office of Inspector General (OIG) auditors
                    observed hazardous materials stored in personal sheds and toolboxes that
                    lacked an adequate quality of construction and effective access controls.
                    Further, the inspections of stored hazardous material were not always
                    completed, and did not cover applicators’ personal vehicles and storage
                    facilities on private property, in part, because the APHIS Safety and Health
                    Manual does not provide adequate guidance in this area.

                    WS received a Homeland Security supplemental appropriation in fiscal years
                    (FY) 2002 and 2003, and expended $1,652,351 to upgrade the security and
                    storage of hazardous materials. APHIS officials report that all WS State and
                    district offices and warehouses now have locking pesticide storage sheds
                    and/or containers. All WS field employees who use pesticides have lockable
                    boxes for transporting pesticides in their vehicles and lockable safes/vaults to
                    safely store hazardous materials at their homes. WS also initiated an
                    inventory system, Control Materials Inventory Tracking System (CMITS), to
                    track hazardous pesticides and drugs in all of their State programs. The
                    system was implemented in December 2002.




USDA/OIG-Audit No. 33001-05-Hy                                                                     ii
                    CMITS tracks pesticide inventory at the lowest level, the applicator, and
                    consolidates inventory at the district and State levels. The system, which
                    tracks by product name, Environmental Protection Agency’s registration
                    number, and unit of measure such as ounces or pounds, starts with a
                    beginning inventory and records by date all additions to inventory such as
                    transfers, and subtractions from inventory such as use, sales, and disposal, to
                    yield an ending inventory. CMITS is used in conjunction with a paper based
                    inventory system, where data is accumulated until CMITS is updated
                    monthly. Reviews are to be performed on a quarterly basis and the system is
                    updated at the District or State level.

Recommendations
In Brief            We recommended that APHIS management establish an organized and
                    coordinated system of management control over the WS inventories of
                    hazardous pesticides and controlled drugs. The system must ensure that all
                    inventories of these materials in all States included within the WS program
                    are properly accounted for and are stored in a safe and secure manner. The
                    system should also incorporate feedback mechanisms so that top-level
                    managers have good information about how the system is working.

                    We also recommended that WS require each State office to: (1) standardize
                    M-44 cyanide capsule terminology for inventory use, (2) develop and
                    implement written procedures for the management and control of inventories
                    of hazardous pesticides and drugs to ensure that the inventory is accurate,
                    (3) require district supervisors to conduct (at least annually) a physical
                    inventory and reconciliation with applicators and require State office
                    personnel to periodically conduct a physical inventory and reconciliation for
                    the district supervisors, and (4) require that inspectors be independent of the
                    storage areas they are inspecting.

                    WS should also: (1) develop specific guidelines for adequate storage and
                    security of hazardous materials on private property or vehicles, including the
                    use of gun safes and/or well constructed storage sheds, (2) require access to
                    the sheds and toolboxes where hazardous pesticides and drugs are stored be
                    limited to authorized personnel, (3) ensure applicators obtain safe and secure
                    storage for use on their vehicles and private property, (4) revise the Safety
                    and Health Manual to clarify the term “hazardous workplace,” add
                    requirements for the inspection of pesticide storage at private residences or
                    on personal vehicles, and require all hazardous materials inspections to be
                    completed and documented in a timely manner. APHIS should also develop
                    guidelines for the use and frequency of field inspections using form ADC 82
                    “Field Inspection Report,” and revise the form to address the requirements
                    for adequate storage and security of hazardous pesticides and drugs.



USDA/OIG-Audit No. 33001-05-Hy                                                                  iii
Agency
Response            APHIS management agreed that prior to 2003 the WS program did not have
                    an accurate inventory system for hazardous materials and lacked adequate
                    storage facilities at many of the sites in the four states where the OIG review
                    occurred. As a result, WS officials were unable to accurately account for the
                    program’s use of hazardous materials and controlled drugs in those states.
                    However, APHIS management did not agree with OIG’s conclusions that WS
                    is unable to fully account for its inventories of hazardous pesticides and
                    controlled drugs, in part, because this statement does not accurately reflect
                    the current status of WS’ ability to track, store, and account for its use of
                    hazardous materials and controlled drugs and does not fully recognize the
                    improvements WS has effected to minimize the risk for loss, theft, or misuse
                    of hazardous materials and controlled drugs.

                    The majority of the improvements to the storage facilities, the revision of
                    program directives, and the implementation of a national hazardous materials
                    tracking system were implemented in 2003 and 2004. OIG officials did not
                    conduct a site visit after August 2002, and as a result, did not substantiate the
                    accuracy of CMITS, which was implemented nationally in December 2002,
                    or the improvements to the hazardous materials storage facilities that were
                    implemented after their site visits. The WS program spent $ 1.6 million in
                    FY 2002 and 2003 to upgrade their security and storage facilities for
                    hazardous materials in addition to implementing CMITS.

                    The agency response states that APHIS has implemented an inventory
                    accountability system that has greatly reduced the risk for undetected theft,
                    loss, or misuse; and that the agency has reasonable assurance that WS
                    inventories of hazardous materials are accounted for and protected.

                    APHIS management generally agreed with the report’s recommendations.
                    We have incorporated excerpts from APHIS’ response in the Findings and
                    Recommendations sections of this report, along with the OIG’s position.
                    APHIS’ response is included in its entirety as Exhibit C.

OIG
Position            While we agree that APHIS WS has improved accountability for hazardous
                    materials inventories, as set forth in our report, we believe additional actions
                    must be taken before APHIS WS has reasonable assurance that the agency
                    can fully account for its inventory of hazardous pesticides and controlled
                    drugs. Based on APHIS’ response, we were able to reach management
                    decision on 6 of the report’s 13 recommendations. The Findings and
                    Recommendations section of this report provides the details of the actions to
                    be taken and the additional information needed to reach management
                    decision on Recommendations No. 1, 2, 4, 6, 7, 11, and 13.


USDA/OIG-Audit No. 33001-05-Hy                                                                    iv
Table of Contents
Executive Summary....................................................................................................................... i
Background and Objectives ........................................................................................................ 1
Findings and Recommendations................................................................................................ 6
      Finding 1 Weaknesses in Accountability Over Inventories of Hazardous Pesticides and
                Controlled Drugs ...............................................................................................6
        Recommendation No. 1...............................................................................................15
        Recommendation No. 2...............................................................................................16
        Recommendation No. 3...............................................................................................17
        Recommendation No. 4...............................................................................................18
        Recommendation No. 5...............................................................................................19
        Recommendation No. 6...............................................................................................19
        Recommendation No. 7...............................................................................................20
        Recommendation No. 8...............................................................................................20
      Finding 2 Weaknesses in the Storage and Security of Hazardous Materials..................22
        Recommendation No. 9...............................................................................................28
        Recommendation No. 10.............................................................................................29
        Recommendation No. 11.............................................................................................29
        Recommendation No. 12.............................................................................................30
      Finding 3 Safety and Field Inspections to Address Security of Storage of Hazardous
                Materials Inventories .......................................................................................30
        Recommendation No. 13.............................................................................................32
Scope and Methodology ............................................................................................................ 34
Exhibit A - Uses and Potential Hazards of Selected Pesticides and Drugs ....................36
Exhibit B – Final Results of Physical Inventory Reconciliation .......................................38
Exhibit C – Agency Response.............................................................................................39




USDA/OIG-Audit No. 33001-05-Hy                                                                                                          v
Abbreviations

ADC         Animal Damage Control
APHIS       Animal and Plant Health Inspection Service
ARPMB       Armed Forces Pest Management Board
CMITS       Control Materials Inventory Tracking System
DEA         Drug Enforcement Administration
DUSD        Office of the Deputy Under Secretary of Defense
EPA         Environmental Protection Agency
FDA         Food and Drug Administration
FY          Fiscal year
I&E         Immobilizing and Euthanizing
INAD        Investigational New Animal Drug
HQ          Headquarters
OCFO        Office of the Chief Financial Office
OIG         Office of Inspector General
OSHA        Occupational Safety and Health Administration
OSS         Operational Support Staff
PSD         Pocatello Supply Depot
SHEB        Safety, Health, and Employee Wellness Branch
WS          Wildlife Services
USDA        United States Department of Agriculture
ZP          Zinc phosphide




USDA/OIG-Audit No. 33001-05-Hy                                vi
Background and Objectives
Background          The mission of the Animal and Plant Health Inspection Service (APHIS) is to
                    protect America’s animal and plant resources by safeguarding them from
                    exotic invasive pests and diseases, monitoring and managing agricultural
                    pests and diseases existing in the United States, resolving and managing trade
                    issues related to animal and plant health, and ensuring the humane care and
                    treatment of animals. Wildlife Services (WS) is an APHIS program that is
                    dedicated to reducing conflicts between wildlife and agriculture, property, and
                    natural resources that may cause economic damage and possibly threaten
                    public health and safety.

                    Section one of the Animal Damage Control Act of March 2, 1931,
                    7 U.S.C. 426, was amended in the fiscal year 2001 Agriculture Appropriation
                    Bill as follows:

                    The Secretary of Agriculture may conduct a program of wildlife services with
                    respect to injurious animal species and take any action the Secretary considers
                    necessary in conducting the program. The Secretary shall administer the
                    program in a manner consistent with all of the wildlife services authorities in
                    effect on the day before the date of the enactment of the Agriculture, Rural
                    Development, Food and Drug Administration, and Related Agencies
                    Appropriations Act, 2001.

                    The Secretary of Agriculture is authorized to make such expenditures for
                    equipment, supplies, and materials, including the employment of persons and
                    means in the District of Columbia and elsewhere, and to employ such means
                    as may be necessary to execute the functions imposed upon him by 426 of
                    this title.

                    On and after December 22, 1987, the Secretary of Agriculture is authorized,
                    except for urban rodent control, to conduct activities and to enter into
                    agreements with States, local jurisdictions, individuals, and public and private
                    agencies, organizations, and institutions in the control of nuisance mammals
                    and birds and those mammal and bird species that are reservoirs for zoonotic
                    diseases, and to deposit any money collected under such agreement into the
                    appropriation accounts that incur the costs to be available immediately and to
                    remain available until expended for Animal Damage Control activities.

                    Since 1985, when WS transferred to the United States Department of
                    Agriculture (USDA), the program has continued to provide Federal leadership
                    and expertise to resolve wildlife conflicts that threaten the nation’s
                    agricultural and natural resources, in addition to human health and safety and
                    property resources. At the headquarters’ level, WS Operational Support Staff
                    provides management and policy guidance for the National program. The


USDA/OIG-Audit No. 33001-05-Hy                                                                    1
                    Western and Eastern Regional offices manage the WS State programs. WS
                    has 39 State offices, located throughout the United States, responsible for
                    managing wildlife damage.

                    Management and direction for WS State programs is provided through State
                    Program Directors, who have supervisory responsibility for district
                    supervisors within each State. District supervisors provide supervision to
                    wildlife biologists and technicians, who are licensed by the respective States
                    as applicators. State Program Directors are Federal employees, as are most
                    district supervisors, and some applicators.

                    WS State programs operate by entering into cooperative agreements with
                    State and local governments, universities, and wildlife management
                    associations. Although all district supervisors and applicators are under the
                    supervision of the Federal program, those district supervisors and applicators
                    who are not Federal employees are paid through State associations and other
                    sources. State Program Directors, district supervisors, and applicators must
                    comply with WS, Environmental Protection Agency, Food and Drug
                    Administration (FDA), Drug Enforcement Administration (DEA), and
                    applicable State rules and regulations regarding wildlife control activities and
                    pesticide use. Applicators provide technical and direct assistance to help
                    protect agriculture, property, and natural resources in nearly every State. In
                    order to apply restricted use pesticides, the applicators are required under the
                    Federal Insecticide, Fungicide, and Rodenticide Act, Public Law 92-516,
                    effective October 21, 1972, to be licensed, by the States in which they
                    operate. Most States require the applicant to successfully complete a written
                    examination and participate in a continuing education program. (Exhibit A
                    provides information on the uses and potential hazards of selected pesticides
                    and drugs.)

                    Pesticides are categorized according to the level of toxicity. Class I
                    pesticides bear the words DANGER, POISON, and a skull and crossbones.
                    They are considered to be highly toxic, with an approximate lethal oral dose
                    ranging from a few drops to a teaspoon. Some Class I pesticides, such as
                    certain rodenticides, may be legally purchased without the purchaser meeting
                    certification requirements. However, these compounds are so toxic that very
                    minute amounts can kill a human or animals. The consequences of misuse,
                    either accidental or intentional, can be severe. Other Class I pesticides are
                    restricted use pesticides, which must be purchased and used by licensed
                    certified applicators. Examples of restricted use pesticides used by WS
                    include cyanide, strychnine, zinc phosphide and Fumitoxin (aluminum
                    phosphide).
                    WS personnel must receive approval from the State Director for all purchases
                    of pesticides and drugs. These materials are primarily obtained from the
                    Pocatello Supply Depot (PSD), located in Pocatello, Idaho. The PSD, a
                    quasi-governmental pesticide manufacturing facility, provides many of the

USDA/OIG-Audit No. 33001-05-Hy                                                                    2
                    customized pesticides used in WS State programs, while more commonly
                    used pesticides and drugs may be purchased from private companies and
                    individual State Departments of Agriculture. WS developed an agency-wide
                    program that included policies to be applied by authorized personnel to
                    obtain and professionally administer immobilizing and euthanizing (I&E)
                    drugs. The WS program is designed to provide standards and protocols for
                    licensing, training, and certification to purchase or possess controlled
                    substances. DEA requirements and those of the Controlled Substances Act,
                    enacted on October 27, 1970, must be met. To administer I&E drugs, FDA
                    requirements including those of the Federal Food, Drug, and Cosmetic Act,
                    as revised March 6, 1999, must be followed.

                    The attacks of September 11, 2001, focused government attention on the need
                    to improve all aspects of security, to include controls over hazardous
                    materials. Official Federal guidance about how to account for various
                    hazardous materials is scanty; USDA agencies are generally not bound to
                    follow standards established by outside organizations, to include the Armed
                    Forces Pest Management Board (ARPMB). However, information developed
                    by other government organizations can provide insight into the need for
                    security awareness and guidance about appropriate ways to handle pesticides
                    and other hazardous substances.

                    The ARPMB Technical Guidance No. 7, Installation Pesticide Security,
                    issued August 2003, explains the necessity of securing government-owned
                    stocks of pesticides. According to the Guide, “Pest management security
                    should be based on potential threats – not on past experiences.” The
                    document sets forth five major areas of threats associated with pesticides, to
                    include:

                    -   Death and destruction: There are numerous highly toxic chemical
                        pesticides that could be used as low-tech chemical warfare agents by
                        terrorists.

                    -   Demoralization: The sudden onset of poisonings would disrupt the
                        normal lives of personnel working, training, or residing in a community.

                    -   Destruction of infrastructure: Pesticides applied to water supplies or
                        wells are perhaps of greatest concern. Concentrated pesticides released
                        into sensitive buildings would harm occupants and disrupt operations.

                    -   Disruption: Major traumatic events may create economic chaos.

                    -   Distrust: Incidents of pesticide poisoning may lead to panic and
                        suspicion by the general public. While a certain amount of skepticism
                        and caution is healthy, fear related to everyday events will have an
                        adverse impact on people’s lives.

USDA/OIG-Audit No. 33001-05-Hy                                                                  3
                    The Office of the Deputy Under Secretary of Defense (DUSD) Technical
                    Guide includes specific requirements about aspects of hazardous materials
                    storage. The perimeters of facilities that store pesticides are to be secure.
                    “Because of the hazardous nature of various pesticides … stored and mixed
                    in pest management facilities, it is essential that such materials be secured
                    and available only to qualified individuals. Security fencing and security
                    gates and other measures are essential.” Specific requirements include a
                    climb-resistant chain link fence of at least 7 feet (2.13 m) high and made of a
                    fence fabric that is twisted and barbed at the top and bottom; exterior
                    lighting; and interior security mesh on windows.

                    Locks on doors of hazardous material containers used for pesticide storage
                    are to be case-hardened and of sufficient size to preclude easy tampering or
                    destruction, according to the DUSD Technical Guide. For facilities where
                    Class I poisons are kept in large quantities, access should be restricted. This
                    can be done by issuing magnetic cards permanently logged into a security
                    system or by providing coded cipher locks in facility doors. Class I poisons
                    are to be segregated from other less toxic pesticides in separate locked
                    cabinets or rooms.

                    When pesticides are to be transported from secured storage locations to job
                    sites, DUSD technical guidance states that the chemicals must be stored in
                    locked containers affixed to the vehicle. This is to be accomplished through
                    the use of utility compartments built into the vehicle or secured to the bed by
                    aftermarket installation.

                    Accountability for hazardous materials is integral to DUSD technical
                    guidance. Requirements include “Inventories of pesticide and application
                    equipment should be made at least quarterly,” and “Accurate records must be
                    kept of all pesticide applications, regardless of site.”

                    In February 2001, the Office of Inspector General (OIG) initiated a survey
                    of WS controls over its hazardous materials inventory. The survey team
                    visited eight inventory locations in two States, Arizona and Nebraska, and the
                    PSD. The audit survey team determined that although inventory controls at
                    the PSD functioned well, controls over the inventories held by the Arizona
                    and Nebraska State programs were inadequate. Perpetual inventories were
                    not maintained, transfers of hazardous materials were not documented, and
                    the two States did not perform periodic physical inventories. The survey
                    identified management control weaknesses in the accountability for
                    hazardous pesticides and controlled drugs requiring immediate attention.

                    OIG Management Alert, No. 33001-04-Hy, issued on October 23, 2001,
                    addressed management control deficiencies found at the WS Arizona and
                    Nebraska State offices and at eight separate inventory locations. The

USDA/OIG-Audit No. 33001-05-Hy                                                                   4
                    Management Alert recommended that WS establish management control and
                    accountability over the hazardous pesticides and controlled drugs used in its
                    programs by: (1) Requiring the Nebraska State Office to determine whether
                    any of the unaccounted for hazardous materials are missing or stolen and
                    report the results to OIG, (2) Requiring all other State offices who use
                    pesticides and drugs and do not maintain inventory records to determine
                    whether there is any unaccounted for inventory. If there are, steps need to be
                    taken to determine if any is missing or stolen and report the results to OIG,
                    (3) Revising State Office review procedures to include a review of the
                    accountability and control of hazardous materials, and (4) Immediately,
                    establishing and implementing controls to ensure that all State offices are
                    maintaining perpetual inventory records of pesticides and drugs, documenting
                    transfers of inventory to applicators, and performing a periodic inventory
                    count.

                    WS responded on November 1, 2001, by requiring all State directors,
                    including Nebraska, Arizona, Texas, and New Mexico, to conduct an
                    immediate physical inventory of the pesticides and drugs at all locations
                    under their control, and to account for the acquisition, use, transfer, sale, and
                    disposal of these hazardous materials. The State directors were instructed to
                    maintain perpetual inventory records using a standardized form and to revise
                    WS State office program review procedures to include a periodic review of
                    accountability and control over all hazardous materials. Although the
                    measures taken by WS in response to the management alert represented
                    progress in improving management control over hazardous materials, more
                    work is needed. Our subsequent review determined that these measures were
                    insufficient because WS officials did not follow up with onsite reviews and
                    spot checks to determine if these measures were appropriately implemented,
                    and if further corrective actions were required.

Objectives          The objectives of our audit were to: (1) evaluate APHIS WS accountability
                    and control over storage, security, disposal, and recordkeeping of hazardous
                    materials in the selected States, and (2) followup on corrective actions taken
                    by APHIS WS in response to our Management Alert.




USDA/OIG-Audit No. 33001-05-Hy                                                                     5
Findings and Recommendations
                    WS does not have reasonable assurance that its inventories of hazardous
                    pesticides and controlled drugs are fully accounted for and protected from
                    intentional or inadvertent misuse. Subsequent to our October 23, 2001,
                    Management Alert on this issue, APHIS headquarters’ (HQ) officials directed
                    WS State Directors to maintain perpetual inventories and to take action to
                    fully account for the receipt, use, storage, and disposition of these materials.
                    Our followup review showed that compliance with this direction was
                    incomplete and problems persisted. We found errors in inventories for
                    Arizona and Nebraska, and the four district offices we reviewed, as well as
                    serious weaknesses in the storage and security of hazardous materials. Safety
                    and field inspections performed by APHIS were inadequate to ensure
                    effective corrective actions.

                    The severity of the problem cannot be accurately quantified in terms of
                    “pounds of poison lost” or “doses of controlled drugs stolen” because WS did
                    not have: (1) an accurate inventory of the amount of hazardous materials
                    believed to be on hand; (2) reliable records of pesticide usage and disposal;
                    or (3) independent validation of physical inventories of amounts that were
                    supposed to be in stock. Thus, there was no way to determine conclusively
                    how much inventory was unaccounted for, how much was missing, and how
                    much, if any, was stolen. Even if the WS State Directors had effectively
                    established a reliable balance as of November 2001, as directed by the
                    National Office, it would have been difficult or impossible to quantify the
                    amounts lost or stolen subsequent to that time, as some applicators did not
                    record use and disposal of certain products and fiscal yearend inventory
                    reports contained uncorrected math errors or were based on unreconciled
                    inventory counts.     However, we have no evidence to suggest that
                    unreconciled amounts were lost, stolen or misused.

                    As described in the following three findings, WS officials must follow up on
                    direction to the field by implementing effective management controls, to
                    include independent review and validation, prompt feedback when problem
                    areas are identified, and timely, reliable corrective action. Unless this is
                    done, WS inventory of hazardous pesticides and controlled drugs will
                    continue to be at risk for undetected theft, loss or misuse.

Finding 1           Weaknesses in Accountability Over Inventories of Hazardous
                    Pesticides and Controlled Drugs

                    Weaknesses in management control over inventories of hazardous materials
                    persist despite efforts by WS to implement corrective actions in response to
                    an OIG Management Alert.           These inventory management control
                    weaknesses were initially detected during our February 2001 survey, and


USDA/OIG-Audit No. 33001-05-Hy                                                                    6
                    were the subject of an October 23, 2001, OIG Management Alert. Our
                    subsequent review, (conducted during April through August 2002) confirmed
                    the existence of several inventory management control weaknesses including
                    inaccurate or absent records of transfers of material into and out of inventory,
                    inaccurate weighing and recording of granular and powdered material
                    quantities, lack of consistently maintained records using a common
                    terminology, and failure to properly segregate inventories belonging to
                    different applicators. These deficiencies noted in 2002, have prevented WS
                    from obtaining a complete and accurate accounting of its inventories of
                    hazardous pesticides and controlled drugs for use in reducing wildlife
                    damage. Therefore, WS does not have reasonable assurance that its
                    inventories of hazardous pesticides and controlled drugs are fully accounted
                    for.

                    During February and March 2004, WS completed an independent spot check
                    of the applicator inventories that OIG originally completed in 2002. At the
                    time of OIG’s inventory, although the Control Materials Inventory Tracking
                    System (CMITS) was being developed, WS primarily used a paper-based
                    inventory in three of four districts reviewed. At the time of WS spot checks,
                    CMITS was fully implemented down to the applicator level. WS spot checks
                    compared actual inventory with recorded, and found 6 of 59 applicators with
                    a discrepancy. However, according to WS officials, in all cases, the
                    supervisor (independent party) identified the source of the problem identified
                    in the spot checks, documented the problem, and corrected the inventory.

                    Our February 2001 survey of management controls over hazardous pesticide
                    and controlled drug inventories at eight locations of the Arizona and
                    Nebraska WS programs determined that the controls were inadequate. The
                    survey disclosed that: (1) perpetual inventories were not maintained,
                    (2) transfers of hazardous materials to other inventory locations were not
                    documented, (3) physical inventories were not periodically performed,
                    and (4) inventory records were not reviewed. WS also reported that an
                    additional 19 States did not maintain inventory records for hazardous
                    pesticides and drugs. The weaknesses disclosed in the accountability and
                    control over these hazardous materials presented an increased, and
                    unnecessary risk to human, domestic, and wild animal health, as weak
                    controls may permit these materials to be more easily misappropriated by
                    unauthorized individuals who may divert them to improper and harmful uses.
                    These weaknesses required immediate attention, and therefore, we issued a
                    Management Alert memorandum to APHIS’ Acting Administrator on
                    October 23, 2001, with recommendations for corrective action.

                    Our Management Alert contained four recommendations as follows:




USDA/OIG-Audit No. 33001-05-Hy                                                                    7
                    1.   Require the Nebraska State Office to determine whether any of the
                         unaccounted for hazardous materials are missing or stolen and report the
                         results to OIG.

                    2.   Require all other State offices who use pesticides and drugs and do not
                         maintain inventory records to determine whether there is any
                         unaccounted for inventory. If there are, steps need to be taken to
                         determine if any is missing or stolen and report the results to OIG.

                    3. Revise State Office review procedures to include a review of the
                       accountability and control of hazardous materials.

                    4.   Immediately, establish and implement controls to ensure that all State
                         offices are maintaining perpetual inventory records of pesticides and
                         drugs, documenting transfers of inventory to applicators, and performing
                         a periodic inventory count.

                    On November 1, 2001, WS responded to the Management Alert. In order to
                    address Recommendation Nos. 1 and 2 above, WS State Directors were
                    instructed to perform immediate physical inventories, revise State office
                    program review procedures, and maintain perpetual inventory records of
                    hazardous materials to fully account for the receipt, use, storage, and
                    disposition of these materials. WS provided copies of the State inventory
                    forms used to conduct the physical inventory as an attachment to their
                    response. They reported that all pesticide use had been accounted for from
                    October 1, 1999 to the present (November 1, 2001), and that no loss or theft
                    of pesticides or other hazardous materials was documented or reported during
                    that time period. However, neither the Nebraska WS personnel, nor those
                    from any of the other States, were able to substantiate the total amount of
                    pesticides available in their inventory prior to October 1, 1999, because they
                    were not able to locate the pesticide invoice records. Therefore, their
                    response provides only minimal assurance regarding lost or stolen pesticides,
                    as all that they can truly report is that they have no records to indicate that
                    materials were lost or stolen.

                    Because WS did not maintain a perpetual inventory, they did not have an
                    accurate accounting of the inventory of pesticides that should have been in
                    inventory at the beginning of the fiscal year (FY), and correspondingly, how
                    much should have been present when they conducted their physical
                    inventories. Therefore, there was no effective way to determine how much
                    inventory was unaccounted for, how much was missing, and how much, if
                    any, was stolen. One of the State Directors we interviewed explained that the
                    State inventory records provided in November 2001, in response to our
                    Management Alert, were inaccurate. According to the State Director, due to
                    the short turnaround period (2 days) allotted by APHIS HQ after our
                    Management Alert, the State office was unable to conduct actual physical

USDA/OIG-Audit No. 33001-05-Hy                                                                   8
                    inventory balances for the State. The information submitted in November
                    2001 was estimated, based on information on hand on each individual
                    applicator from the district offices.

                    WS efforts to correct the inventory problems identified in our Management
                    Alert were not fully successful; significant amounts of hazardous substances
                    in Nebraska (identified as unaccounted for during our June 2001 survey
                    review) remain unaccounted for. For example, the State Office could not
                    locate almost 39,000 of 48,000 Fumitoxin fumigant tablets purchased or
                    2,400 of 3,000 M-44 Cyanide capsules purchased (See Exhibit B). Both
                    cyanide and Fumitoxin are Class I pesticides. Since the beginning balances
                    were not confirmed, and due to the absence of contemporaneous usage data,
                    we were unable to determine whether the shortages represented missing
                    inventory or incomplete recordkeeping.

                    OIG’s Management Alert Recommendation No. 3 required WS to revise
                    State office review procedures to include a review of the accountability and
                    control of hazardous materials. In their response, WS provided a copy of
                    revised State program review procedures including a review of accountability
                    and control over hazardous materials. However, our subsequent review of
                    WS operations in New Mexico and Texas showed that inventory
                    management control weaknesses persist, particularly with regard to
                    accounting for inventories of hazardous materials, such as M-44 cyanide
                    capsules and pesticides in granular or powdered form, which require precise
                    weighing prior to distribution or disposal. WS officials implemented a
                    perpetual inventory system, and updated the State Office review procedures;
                    they did not conduct onsite followup reviews of effectiveness, and did not
                    followup with specific corrective actions when needed.

                    Management Control Processes Did Not Detect Errors in
                    Perpetual Inventory Records

                    Although WS issued policies to create perpetual inventory systems in
                    response to OIG’s October 23, 2001 Management Alert, the systems
                    implemented as of August 2002, were insufficient to account for more than
                    basic inventory functions because they did not reliably record and report on
                    inventory movement involving hazardous materials subject to complex
                    measurement and distribution transactions.                Management Alert
                    Recommendation No. 4, above, required that WS immediately implement
                    management controls to ensure that all State offices maintain perpetual
                    inventory records of hazardous pesticides and drugs, document transfers of
                    inventory to applicators, and perform periodic physical inventories.
                    Although, WS officials performed some routine inspections and safety
                    reviews, they did not buttress their policies and direction with organized and
                    coordinated site visits and inspections. Reviews and inspections that were
                    performed did not include steps to ensure that personnel responsible for


USDA/OIG-Audit No. 33001-05-Hy                                                                  9
                                    maintaining the perpetual inventory system fully understood and consistently
                                    implemented its requirements, and that needed corrections were identified
                                    and swiftly addressed. This inattention to followup resulted in an inadequate
                                    implementation of the perpetual inventory system.

                                    The following sources require that an accurate accounting be maintained for
                                    inventories of hazardous materials. Office of Management and Budget
                                    Circular No. A-123, “Management Accountability and Control,” states that
                                    management controls must provide reasonable assurance that assets are
                                    safeguarded against waste, loss, unauthorized use, and misappropriation.
                                    Environmental Protection Agency (EPA)2 requires applicators of restricted
                                    use pesticides to maintain records to support pesticide use for a 2-year period.
                                    These records should include product name, amount, date and location of use.
                                    The Texas and New Mexico Departments of Agriculture also have similar
                                    use requirements. The Animal Damage Control (ADC) Directive 2.401,
                                    “Pesticide Use,” dated October 14, 1993, places responsibility on the State
                                    Directors for establishing proper accounting, monitoring, and recordkeeping
                                    procedures for all pesticides used in their program. ADC Directive 2.415,
                                    “M-44 Use and Restrictions,” dated April 8, 1994, states that M-44 capsules
                                    must be used in accordance with EPA restrictions.

                                    While APHIS WS is not bound to follow the DUSD guidance, Technical
                                    Guide 7 issued by the Armed Forces Pest Management Board can serve as a
                                    benchmark for best practices in accounting for hazardous pesticides. This
                                    document identified pesticides as a potential terrorist tool and mandates
                                    quarterly inventories of pesticides and accurate records of all pesticide
                                    applications, regardless of site. Copies of inventories are forwarded to the
                                    Pest Management Coordinator, as well as to emergency first responders, fire
                                    departments, medical emergency rooms, and security offices.

                                    Management Control Review Processes Employed by WS

                                    At the time of the audit, there was no overall coordinated review process in
                                    place within WS to ensure that all inventory locations received consistent
                                    periodic inspections, to ensure that perpetual inventory management controls
                                    were functioning as intended, and that errors and misapplications of WS
                                    guidance and direction were detected and timely corrected. As a part of its
                                    management control process, WS employs three inspection and review
                                    mechanisms. They operate somewhat independently of one another, as some
                                    reviews are performed by WS’ management personnel, while others may be
                                    performed by non-Federal employees with only summary data provided up
                                    the chain of command to WS management. The result is that current reviews
                                    and inspections do not provide reasonable assurance as to the accuracy of

2
    40 C.F.R., Part 171.11, dated July 1, 2001.



USDA/OIG-Audit No. 33001-05-Hy                                                                                   10
                    reported perpetual inventory information.

                    Field Inspections are conducted by applicators or district supervisors, who are
                    not always Federal employees. Wildlife control activities are reviewed
                    through the use of a field inspection process. Procedures applied vary by
                    State, as there are no directives requiring the use of specific WS procedures.
                    Some field inspections, such as the one used in New Mexico, require the
                    inspector to complete an assessment of whether pesticide control and
                    application equipment, such as M-44 capsule devices, is reasonably secured
                    against theft and loss. At the time of the review, there were no uniform
                    requirements to assess the accuracy of the perpetual inventory records at
                    individual storage locations, nor any directives concerning the use and
                    frequency of Field Inspections.

                    WS performs State Office Program Reviews, which are infrequent
                    programmatic reviews of State WS activities. WS stated in its response to
                    the Management Alert that the agency had revised the State program review
                    procedures to include a review of the accountability and control of hazardous
                    materials. Because the reviews are broad in scope and conducted
                    infrequently, this change did not provide assurance that management controls
                    over hazardous materials inventories were being consistently applied.

                    Safety and Health Inspections are performed exclusively by WS personnel,
                    and are concerned with the safety of the storage of the hazardous pesticides
                    and controlled drugs at WS inventory storage sites only on Federally owned
                    or leased property. Because the Safety Inspection reports are submitted in
                    summary form and the inspections were not always independently conducted,
                    assurance that all storage facilities were identified, and all required
                    inspections were completed was reduced.

                    The APHIS Safety and Health Manual requires WS regional directors to
                    submit annual summary reports on the number of hazardous material
                    workplaces, the number of inspections conducted, and the reasons why
                    inspections were not completed. One regional director (West) was late in
                    submitting the FY 2002 summary reports, and erroneously reported that all
                    hazardous materials locations had been inspected. However, no Hazardous
                    Chemical Storage inspection had been performed for either the College
                    Station or Conroe Texas storage sites in FY 2002. Individual inspection
                    reports prepared by district supervisors are compiled into a summary report
                    for each State; only the summary is submitted to the Regional Office. The
                    use of summaries increases the chance that missing individual reports from
                    field storage locations may be overlooked.

                    On February 10, 2004, WS revised Directive 2.401, Pesticide Use. The
                    revised directive includes a standard for the safe storage of pesticides,
                    appropriate waste disposal methods, and a defined pesticide inventory system.

USDA/OIG-Audit No. 33001-05-Hy                                                                  11
                    This directive defines central storage/distribution facilities as pesticide storage
                    generally located at State, district, or field offices, and/or affiliated warehouse
                    buildings. The directive defines residential storage as pesticide storage at a
                    residence, using approved locked pesticide storage cabinet or box. Central
                    storage/distribution facilities are subject to inspections through the
                    APHIS 256-5, APHIS Safety Inspection Checklist, which requires a minimum
                    of two inspections per year.

                    For residential and vehicle storage sites, WS developed a Self-Inspection
                    Checklist, for inspection of pesticide storage. Directive 2.401 requires the
                    Self-Inspection to be completed twice a year, and the inspection reports to be
                    forwarded to the State Director/Field Station leader for retention. The Self-
                    Inspection Checklist requires review of pesticide storage, and addresses the
                    use of approved storage cabinets/boxes, use of locks, environmental
                    considerations, labeling, restriction of access, and other safety considerations.

                    The Directive requires State Directors to verify the accuracy of the self-
                    inspection checklists and the APHIS 256-5 checklists and take appropriate
                    action to correct deficiencies. Although the revised Directive addressed
                    storage of both WS owned/leased facilities (central storage/distribution) and
                    storage at residential and vehicle sites, the Directive does not address
                    independence in the inspection process. However, conducting at least one
                    independent inspection per year is necessary to properly ensure that pesticides
                    are securely stored.

                    Examples of Errors and Omissions in Inventory Records

                    At each of the four WS District offices and two State offices we visited
                    during our followup review in 2002 in New Mexico and Texas, we found
                    errors in the inventory records. These mistakes call into question the
                    effectiveness of the perpetual inventory system as implemented under WS’
                    direction in response to our October 2001 Management Alert.



                    Errors in States’ Inventories:

                    1. Twenty six of 54 applicators included in our survey made mistakes in
                       recording and reconciling inventory amounts. For example, a known
                       mistake made 8 years ago is still reflected in inventory records, with the
                       result that the district warehouse is shown to be 11.4 ounces short of zinc
                       phosphide concentrate. There was no evidence that WS officials had
                       conducted any reviews or assessments to determine how effectively
                       applicators were implementing the new inventory system.

                    2. In one district warehouse, the beginning inventory count was incorrect,

USDA/OIG-Audit No. 33001-05-Hy                                                                      12
                       and an independent verification had not been performed for two products,
                       Telazol and Fumitoxin. The Telazol balance was understated by
                       10 milliliters, a significant amount given then the entire New Mexico
                       inventory of the product was only 20 milliliters. The Fumitoxin balance
                       was overstated by 208 tablets, which is approximately 35 percent of the
                       reported beginning inventory. Also, inventory reconciliations had not
                       been performed for the Class I pesticides Fumitoxin and phosphide
                       pellets. Some errors were obvious, such as 50 pounds. of zinc phosphide
                       pellets on hand, while records showed no entry for this product.

                    3. The WS Texas State fiscal yearend perpetual inventory report was
                       unreliable. Our review of the inventory for DRC-1339 showed that a
                       math error had resulted in an overstated ending balance of 50 grams, or
                       about 2.5 percent of total reported FY 2002 usage for the State. This
                       error was not caught at either the State or national level, calling into
                       question the adequacy of the fiscal yearend inventory report, and
                       management controls over the review of the report.

                    The lack of independence of the personnel performing the inspections may
                    have inhibited the objectivity of the inspection process. For 10 of 14 safety
                    and health inspections in FY 2001 and FY 2002, the individual performing
                    the inspections also had responsibility for the operation of the storage facility.
                    This lack of independence can result in unreported inventory errors. Office
                    of Management and Budget Circular A-123, states that key duties and
                    responsibilities in reviewing transactions should be separated among
                    individuals.

                    Inaccuracies in Recording and Reporting on Hazardous Materials
                    Subject to Complex Handling Procedures

                    Our 2002 review in New Mexico and Texas disclosed that applicators had not
                    accurately accounted for their inventories of M-44 cyanide capsules. M-44
                    capsules present challenges in accounting for inventory because of the many
                    conditions and transactions involved in their handling. M-44 capsules are
                    typically placed on ranches in specialized ejector devices. An individual
                    ranch may contain numerous M-44s, placed in remote areas. Until the
                    capsule discharges, it is considered to be in available inventory. (If the
                    applicator’s weekly inspection shows that the device has been discharged, the
                    M-44 capsule is considered “used,” and therefore no longer a part of the
                    available inventory stock.) In some cases, an applicator may remove the
                    capsule holder from the ejector device with the M-44 capsule still attached.
                    In this condition, the capsule is still considered to be in available inventory.
                    M-44 capsules that are not discharged may be in storage, deployed on a
                    ranch, or retrieved from a ranch and ready for redeployment. These M-44
                    capsules are still considered to be in inventory. M-44 capsules are considered
                    lost if damaged due to rain, flood, or disruption caused by non-target species.

USDA/OIG-Audit No. 33001-05-Hy                                                                     13
                                    The wide physical dispersion of the inventory presents another challenge to
                                    accounting for M-44 capsules. For example, one New Mexico applicator had
                                    M-44 capsules stored in a truck and in 50 ejector devices spread over a 5,000
                                    square mile area (one county), for a total of 51 individual inventory locations.

                                    Additional problems encountered by APHIS WS in maintaining control over
                                    its M-44 inventory include:

                                    1. An inconsistency in M-44 terminology, as it applies to inventory. On
                                       February 18, 2004, WS revised directive 2.415, M-44 use and restrictions
                                       to clarify M-44 inventory procedures.

                                    2. The failure to properly record use and disposal of M-44 capsules. In
                                       Texas, 6 of 32 judgmentally selected applicators with M-44 capsule
                                       inventories did not record capsule use and disposal, as required by the
                                       EPA.3 For example, an applicator failed to record the disposal of
                                       68 M-44 cyanide capsules in April 2002. This reported inventory was
                                       136 capsules, but only 68 were on hand when we made our physical
                                       inventory.    Thus, this applicator’s inventory was overstated by
                                       100 percent.

                                    3. Failure to ensure that applicators maintain complete and legible records.

                                    4. Failure to properly segregate individual applicators’ inventories in the
                                       recordkeeping process.

                                    5. Failure to accurately identify and record beginning inventory balances.
                                       Usable beginning inventory amounts were not determined and errors were
                                       made in recording balances. In some cases, the immediate physical
                                       inventories mandated by WS were not conducted or were not performed
                                       accurately. Those responsible for hazardous materials, in New Mexico
                                       and Texas, frequently told us that reported balances were estimates or
                                       calculations, rather than the result of physical counts.

                                    6. Lack of independent verification of beginning inventory amounts. Texas
                                       District Supervisors did not independently verify individual applicators’
                                       beginning M-44 capsule inventory amounts. Instead, the applicators
                                       conducted their own physical inventory counts and reported those results
                                       as the FY 2001 beginning balances, and




3
    40 C.F.R., Part 171.11, July 1, 1995.



USDA/OIG-Audit No. 33001-05-Hy                                                                                   14
                    7. Empty M-44 capsules not consistently tracked to ensure that they were
                       properly discarded. After a capsule is discharged, the empty capsule must
                       be retrieved and discarded in accordance with EPA instructions.

                    Powdered and Granular Materials:

                    Measurement errors resulted in a lack of accountability over inventories of
                    powder and granular forms of hazardous pesticides.               For example,
                    measurement errors during weighing and transfer contributed to the reporting
                    of incorrect beginning balances in the Las Cruces (New Mexico) and Canyon
                    (Texas) districts. A variety of such errors reduced the accountability for
                    grains treated with pesticides and for other substances stored in powder and
                    granular form. These products require careful measurement to provide an
                    accurate accounting. The sale or transfer of pesticides such as DRC 1339,
                    zinc phosphide pellets, or oats in grain or powder form (refer to Exhibit A for
                    description of the uses of these materials) produces a risk that small amounts
                    of the product may be lost. Many of the treated grains are stored in large
                    bags, and applicators pour smaller amounts into containers for use or sale.
                    The cumbersome bags weigh up to 50 pounds, and small amounts are
                    occasionally spilled.

                    Some locations do not have access to scales for weighing these materials.
                    Equipping applicators who handle significant volumes of these materials with
                    scales may provide a practical solution to some of the inventory measurement
                    problems. Additionally, the district offices can verify the weight of
                    DRC 1339 and other treated grain products when they are returned, and
                    followup when significant exceptions to amounts reported as used or sold are
                    detected. In such cases, the District Supervisor should determine the cause of
                    the discrepancy and take corrective action to prevent future problems.

Recommendation No. 1

                    Establish a documented comprehensive management control process, to
                    include reviews and inspections under the authority of WS national
                    management personnel to ensure that all inventory locations where hazardous
                    pesticides and controlled drugs are stored receive an annual inspection for
                    accountability of the inventory conducted by personnel independent of the
                    operation of the storage facility.

                    Agency Response.

                    A hand-written manual inventory control system was developed in
                    October 2001 and used to report hazardous materials and controlled drugs to
                    the OIG in the same month. CMITS, a nationwide, automated inventory
                    control database, was developed and implemented in December 2002 and
                    employed nationally. In addition, several State Program Evaluations have

USDA/OIG-Audit No. 33001-05-Hy                                                                  15
                    been completed, which include a review of CMITS and the storage and
                    security of hazardous pesticides and controlled drugs. In February 2004,
                    using CMITS, WS conducted a physical inventory of hazardous materials and
                    controlled drugs in the four states reviewed by OIG. The inventory covered
                    the time period of October 1, 2003, through January 31, 2004, with only
                    minor discrepancies identified and actions taken to correct them. In addition,
                    WS developed, and will implement by July 1, 2004, a new directive,
                    “Accountability and Oversight of hazardous Materials,” Directive 2.465,
                    which provides a process to review inventories by various levels of
                    management, including State, Regional, and Headquarters personnel.

                    OIG Position.

                    We generally agree with the APHIS response for this recommendation.
                    Directive 2.465 requires annual inspections of hazardous materials stored by
                    users, to be conducted by personnel independent of the operation of the
                    storage facility. However, Directive 2.465 requires the State Office to
                    conduct, at a minimum, a random spot check of only one district annually.
                    Further, Directive 2.465 requires that the regional office conduct a spot check
                    of only two states annually. (There are two regional offices that roughly
                    divide the country.) For this recommendation, Directive 2.465 is adequate to
                    address hazardous materials stored by users. However, the Directive is not
                    adequate to address those locations that typically store the majority of
                    hazardous materials – the district and state offices. To achieve management
                    decision for this recommendation, APHIS should require annual inspections
                    for accountability of the inventory, to include all district offices and state
                    offices that store hazardous materials, at least annually.

Recommendation No. 2

                    Establish a management control process to ensure that all exceptions noted as
                    a result of a review or inspection of an inventory location where hazardous
                    materials are stored are promptly corrected, and that responsible individuals
                    are made aware of the problems and provided with instruction on the
                    corrective measures required.

                    Agency Response.

                    Following State Program Evaluations, and when the evaluation team’s final
                    report is completed, recommendations are provided to the accountable State
                    Director regarding any needed changes. Also, concerns or needs from the
                    State programs are documented. The USDA Physical Security Specialists
                    have and will continue to conduct security assessments, which include self
                    security assessments, as well as on-site facility reviews of vulnerabilities and
                    threats, security of hazardous materials, countermeasures currently employed
                    with the facility, and recommendations for improvements to facility security.

USDA/OIG-Audit No. 33001-05-Hy                                                                   16
                    In addition, WS developed, and will implement by July 1, 2004, a new
                    directive, “Accountability and Oversight of Hazardous Materials,” Directive
                    2.465, which provides a process to review inventories by various levels of
                    management, including guidelines on roles and responsibilities for correcting
                    identified problems.

                    OIG Position.

                    The APHIS response does not describe the management controls to be
                    established to ensure that all exceptions noted as a result of a review or
                    inspection of an inventory location where hazardous materials are stored are
                    promptly corrected. Regarding State Program Evaluations, the response only
                    notes that recommendations are provided to the accountable State Director,
                    but does not describe how the agency will ensure that recommendations are
                    implemented. Similarly, the response does not describe how the agency will
                    ensure implementation of recommendations for improvements to facility
                    security made as part of security assessments. Finally, the recently issued
                    APHIS Directive 2.465 does not directly address correction of noted
                    exceptions; other than the phase “options to rectify the situation will be
                    provided to avoid future discrepancies.” To reach management decision,
                    APHIS should provide details of the management control process to be put
                    into place to ensure that all exceptions noted as a result of a review or
                    inspection of an inventory location are promptly corrected, and that
                    responsible individuals are made aware of the problems and provided with
                    instruction on the corrective measures required. Additionally, the agency
                    should provide the date by which these controls will be put into place.

Recommendation No. 3

                    Establish a management control process to ensure that all hazardous materials
                    inventory inspection results are tracked and that a coordinated analysis is
                    performed to identify trends that may signal emerging problems.

                    Agency Response.

                    WS has developed, and will implement by July 1, 2004, a new directive,
                    “Accountability and Oversight of Hazardous Materials,” Directive 2.465,
                    which provides a process to review inventories by various levels of
                    management, including guidelines on roles and responsibilities on tracking,
                    review, and analysis by the regions and WS Operational Support Staff (OSS).
                    This process includes coordination between the Field specialist, District
                    supervisor, State director, Regional office, and Headquarters regarding this
                    process.




USDA/OIG-Audit No. 33001-05-Hy                                                                17
                    OIG Position.

                    We agree with the APHIS management decision for this recommendation.
                    To reach final action, APHIS should provide the Office of the Chief Financial
                    Office (OCFO) with documentation that hazardous material inventory
                    inspection results are being tracked and that inventories are being forwarded
                    for further analysis, in accordance with the recently issued Directive 2.465.

Recommendation No. 4

                    Establish a management control process to ensure that all hazardous materials
                    inventory inspections are timely completed and results are accurately and
                    fully reported.

                    Agency Response.

                    WS has developed, and will implement by July 1, 2004, a new directive,
                    “Accountability and Oversight of Hazardous Materials,” Directive 2.465,
                    which provides a process to review inventories by various levels of
                    management, including guidelines on roles and responsibilities on tracking,
                    review, and analysis by the regions and WS/OSS. This process includes
                    coordination between the Field specialist, District supervisor, State director,
                    Regional office, and Headquarters regarding this process. The Directive
                    establishes CMITS as the national hazardous materials and controlled drugs
                    inventory accountability reporting system. CMITS requires timely reporting
                    of hazardous materials inventories to be submitted to the regions and to
                    headquarters on an annual basis. The WS state programs compile and
                    accurately report information to the Regional offices and Headquarters for
                    additional analysis and concurrence. Independent inspections are conducted
                    by the State collateral duty safety and health office, district supervisor from
                    another district, or other management authority with the State. This can be
                    on a spot check basis, as well as on an annual basis.

                    OIG Position.

                    We agree that the recently issued APHIS WS Directive 2.465
                    “Accountability and Oversight of Hazardous Materials” describes a process
                    that will likely improve the agency’s ability to ensure the accuracy and
                    integrity of inventories of hazardous materials. However, the Directive does
                    not establish a management control process to ensure timely completion of
                    inventory inspections. To reach management decision, APHIS needs to
                    provide the details of how the agency will ensure that all hazardous material
                    inventory inspections are timely completed and the date by which the process
                    will be implemented.




USDA/OIG-Audit No. 33001-05-Hy                                                                  18
Recommendation No. 5

                    Institute management controls to ensure that applicators consistently
                    segregate and track their individual pesticide/drug activity when they work
                    together; properly record the use and disposal of all hazardous pesticides and
                    drugs; maintain and retain current, complete, and accurate inventory records;
                    and properly record drug names, EPA numbers, and quantities sold.

                    Agency Response.

                    WS developed, and will implement by July, 2004, Accountability and
                    Oversight of Hazardous Materials Directive 2.465, and updated Pesticide Use
                    Directive 2.401, to provide WS employees guidance for ensuring proper
                    accounting for tracking hazardous material activities.          As part of
                    Directive 2.465, annual and spot inventory inspections will enforce this
                    activity, and any deficiencies will be corrected. Analysis of CMITS physical
                    inventories will be conducted to ensure accuracy and accountability of the
                    reports.

                    OIG Position.

                    We accept APHIS’ management decision. For final action, APHIS needs to
                    provide OCFO with documentation that the procedures described in APHIS
                    Directives, 2.465 and 2.401 have been implemented.

Recommendation No. 6

                    Take action to ensure that all applicators possess adequate equipment to
                    safely handle and dispense hazardous materials and drugs.

                    Agency Response.

                    WS submitted a request on June 1, 2004, seeking agency surplus Homeland
                    Security funding to procure personal protective equipment and additional
                    storage/lock boxes to secure all hazardous materials, as well as equipment for
                    dispensing pesticides accurately and uniformly.

                    OIG Position.

                    To reach management decision for this recommendation, APHIS should
                    provide us with details of how the agency will ensure that all applicators have
                    the equipment needed to safely handle and dispense hazardous materials and
                    the dates by which the agency expects to complete procurement and issuance
                    of the personal protective equipment and additional storage/lock boxes.




USDA/OIG-Audit No. 33001-05-Hy                                                                  19
Recommendation No. 7

                    Revise ADC Directive 2.401 in accordance with Recommendation No. 1,
                    above to: (1) include written procedures for inventory for all pesticides and
                    drugs, (2) require a periodic physical inventory and reconciliation with
                    applicators, (3) require that State office personnel conduct an annual physical
                    inventory and reconciliation for all district supervisors, and (4) require that all
                    pesticides and drugs are clearly labeled and that pesticides meant for disposal
                    are separated from usable inventory.

                    Agency Response.

                    WS Directive 2.401 was revised and implemented on February 17, 2004. It
                    addressed this issue and included additional, appropriate guidance. In
                    addition, WS Directive 2.465 was developed and will be implemented by
                    July 1, 2004, to address this issue.

                    OIG Position.

                    We do not accept APHIS’ management decision. Directive 2.401 provides
                    record-keeping requirements for pesticides, but does not include written
                    procedures for inventories of drugs. Additionally, APHIS Directive 2.465
                    calls for only one physical inventory and one spot check of one randomly
                    chosen district annually. WS completed independent spot checks of
                    inventories in February and March 2004 and found discrepancies in 6 of 59
                    sites reviewed. Based on this continued error rate of more than ten percent
                    and because the Directive does not address independence in the inspection
                    process, APHIS should require State office personnel to conduct an annual
                    physical inventory and reconciliation for all district supervisors. At a
                    minimum, this process should be continued until the results of the inventories
                    and reconciliations consistently demonstrate strong accountability for
                    hazardous materials. To reach management decision, APHIS should provide
                    written procedures for inventory of all drugs and details of plans for
                    independent and more frequent physical inventories and reconciliations for
                    district supervisors.

Recommendation No. 8

                    Revise ADC Directive 2.415 to standardize M-44 terminology for use in
                    recording inventory.

                    Agency Response.

                    WS Directive 2.415 was updated and implemented on February 18, 2004, to
                    respond to M-44 terminology for use in recording inventory.



USDA/OIG-Audit No. 33001-05-Hy                                                                      20
                    OIG Position.

                    We agree with the APHIS management decision for this recommendation.
                    To achieve final action, the agency should provide OCFO with a copy of the
                    updated directive.




USDA/OIG-Audit No. 33001-05-Hy                                                             21
Finding 2                          Weaknesses in the Storage and Security of Hazardous Materials

                                   At the time of our audit, WS had not met the objective of providing secure
                                   storage in all cases of its hazardous pesticides and controlled drugs. These
                                   materials were sometimes stored in a manner that increased the risk of theft
                                   or unauthorized access, possibly causing harm to humans and domestic
                                   animals through accidental or intentional release into the environment. WS
                                   had not developed a methodology to effectively identify hazardous conditions
                                   and ensure prompt correction, resulting in the continued use of inadequate
                                   storage facilities. Specifically, we found that WS guidance for the conduct of
                                   Safety Inspections did not address security of storage of hazardous materials
                                   in government owned or leased facilities or on private property. Further, we
                                   found that the inspections were not completed timely or independently.

                                   This condition was especially prevalent for the WS hazardous pesticide and
                                   controlled drug inventories stored on private property by its applicators. Our
                                   review disclosed that 10 of 47 private storage facilities in New Mexico and
                                   Texas consisted of poorly constructed sheds and boxes. Three applicators
                                   informed us that unauthorized personnel had access to their storage facilities.4
                                   We concluded that many of the hazardous material storage locations we
                                   reviewed in Arizona, Nebraska, New Mexico, and Texas5 were vulnerable to
                                   theft, unauthorized use, and accidental release into the environment, thus
                                   increasing the threat to human and animal safety.

                                   Each State has its own storage requirements. The Nebraska Core Manual6
                                   prohibits pesticides from being carried in the passenger section of a car, van,
                                   or truck and requires that children, other passengers, and pets never be placed
                                   at risk of being exposed to pesticides during transportation. The New Mexico
                                   State Pesticide Maintenance and Storage Requirements,7 state that pesticides
                                   should be stored in a manner that reasonably ensures that human foods, pet
                                   foods, drugs, animal feeds, commercial fertilizers, seeds, or clothing will not
                                   be contaminated. The Texas Department of Agriculture Rule 7.34,8 states
                                   that no person may store any pesticide or pesticide container in a manner that
                                   may cause or result in injury to humans.

                                   The need to exercise care in the storage of Fumitoxin (aluminum phosphide)
                                   is well known. An article titled “Don’t Do It” in a Cooperative Extension

4
    Many of the storage facilities utilized by the applicators are personal tool sheds, commingling storage of hazardous materials with
    household implements likely to be used by all family members. This leads us to believe this may be a widespread vulnerability.
5
    The conditions described in Arizona and Nebraska were initially identified during the audit survey, Audit No. 33001-5-Hy. Our
    subsequent audit work in New Mexico and Texas confirmed the need for nationwide corrective actions.
6
    Nebraska Core Manual, Applying Pesticides Correctly, undated.
7
    Rules Promulgated Under the New Mexico Pesticide Control Act, dated 10/21/97.
8
    Texas Department of Agriculture Pesticide Rules and Regulation dated January 1988.



USDA/OIG-Audit No. 33001-05-Hy                                                                                                            22
                                  Service publication described an EPA investigation of the alleged misuse of
                                  aluminum phosphide that possibly caused the death of two people in their
                                  home. The article warns “a terrorist may obtain aluminum phosphide … and
                                  place it in a public building,” and it recommends that “Applicators must
                                  closely control access to aluminum phosphide, and they must make sure that
                                  no product ever ‘walks’ because an employee takes it home or gives it to a
                                  friend.”

                                  To assess the adequacy of storage and the security of hazardous material
                                  facilities, OIG auditors visited 59 storage sites, including the Arizona and
                                  Texas State offices, four district offices, and 53 applicator storage sites. In
                                  each case, the storage sheds and truck toolboxes met the minimum Federal
                                  regulations requiring locks. However, in ten instances, the storage locations
                                  were ultimately unsecured. Hazardous materials were stored inside personal
                                  residences, in plastic picnic-type containers in the beds of pickup trucks, in
                                  poorly constructed sheds, and in the passenger compartments of vehicles.

                                  Storage of sodium cyanide capsules and Fumitoxin (both Class I pesticides)
                                  violated specific USDA and EPA regulations. ADC Directive 2.401,9 states
                                  that pesticides must be stored in a locked or secured box, building, or vehicle
                                  when not in use. EPA10 prohibits M-44 sodium cyanide use in areas
                                  frequented by humans or domestic animals. According to EPA regulations,
                                  M-44 capsules must be stored under lock and key in a dry place. EPA
                                  requires Fumitoxin to be stored in a dry, well-ventilated area away from heat
                                  and under lock and key.

                                  At the Arizona State office, a Federal site, Fumitoxin (aluminum phosphide)
                                  was stored in a rusted metal lockbox outside the warehouse under a pile of
                                  debris and wire metal panels. The metal box was exposed to heat and was
                                  not ventilated. Fumitoxin is a restricted use pesticide that produces a highly
                                  toxic phosphine gas when exposed to water.11 Although the required
                                  “DANGEROUS” and “POISON” signs were placed directly on top of the
                                  lockbox, the signs would not be visible until the debris and wire panels are
                                  removed. Thus, firefighters and other emergency responders would have no
                                  notice or knowledge of the highly toxic, potentially explosive chemicals
                                  stored under the pile of debris. Because the Arizona State office warehouse
                                  is located in a business complex, the hazard threatened the safety of workers
                                  in the surrounding firms, as well as WS employees (See picture Nos.1 and 2).


                                                                                        No. 1 Fumitoxin was stored
                                                                                        under this pile of flammable

9
     ADC Directive 2.401, Pesticide Use, dated 10/14/93.
10
     ADC Directive 2.45, M-4 Use and Restrictions, dated 4/8/94.
11
     Phosphine gas killed many soldiers at Ypres, Belgium in 1915 during World War I.



USDA/OIG-Audit No. 33001-05-Hy                                                                                   23
                    debris outside the Arizona State Office. Fumitoxin releases highly toxic gas
                    when exposed to water, and its hidden presence would place firemen and
                    bystanders in grave danger in the event of a fire.



                                                                No. 2 Closeup photo of the
                                                                Arizona State Office Fumitoxin
                                                                in storage with its “poison gas”
                                                                warning sign buried under
                                                                debris.




                    The last State Program Review in Arizona was conducted in June 1996, at its
                    current location. At that time, a Safety Inspection was also completed and
                    both the Program Review and the Safety Inspection concluded that pesticides
                    were stored properly in a separate locked storage room in the warehouse.
                    There was no indication whether Fumitoxin was being stored at that time;
                    however, the State Program Review stated that the local fire marshal was
                    notified of the contents of the storage room. Prior to our field visit, in
                    February 2002, the State Director moved the Fumitoxin outside due to safety
                    considerations. As of April 2003, the Fumitoxin storage location remained
                    unchanged. At that time, the Arizona State Director stated that funds
                    requested from WS HQ to improve the storage of Fumitoxin were not
                    provided.




USDA/OIG-Audit No. 33001-05-Hy                                                               24
                    On January 2004, Arizona completed the installation of the new storage
                    facility (See picture Nos. 3 and 4). According to WS officials, the new
                    storage facilities will correct the hazard associated with the storage of
                    Fumitoxin.




                                                          No. 3 New storage facility for Arizona
                                                          State office.




                                                          No. 4 New containers for storage of
                                                          pesticides in the new storage facility at
                                                          Arizona State office.




                    We identified several storage sheds in three rural New Mexico counties that
                    met the minimal technical requirements of having a lock, but were so poorly
                    constructed that the hazardous materials stored inside could easily be stolen.
                    One shed had a door made of thin wood with external hinges that could be
                    easily removed (See picture No. 5).




                                                  No. 5 Poorly constructed wooden storage
                                                  shed with exposed easily removable hinges on
                                                  the door, potentially allowing easy access to a
                                                  variety of dangerous poisons stored inside.



                                                   Within the shed were a variety of poisons,
                    including the Class I pesticides M-44 capsules (containing sodium cyanide),

USDA/OIG-Audit No. 33001-05-Hy                                                                  25
                    strychnine, Fumitoxin, and zinc phosphide. A second shed was made of thin
                    metal, and contained M-44 capsules and Fumitoxin (See picture No. 6).




                                                           No. 6 A shed containing Fumitoxin
                                                           and M-44 cyanide capsules, made of
                                                           thin metal with an ill-fitting door.




                    A shed containing sodium cyanide and livestock protection collars had loose
                    siding and a hole the size of a fist piercing its side. WS officials stated that
                    although these were not the best storage arrangements, there was no technical
                    violation of WS or Federal storage requirements.

                    Agency officials advised us that New Mexico completed the installation of
                    substantially constructed storage sheds in August 2003 (See picture No. 7).




                                                               No. 7 Newly constructed storage
                                                               containers for New Mexico.




                    We also found instances where hazardous materials were stored in the homes
                    of applicators, potentially endangering the residents and any visitors. (See
                    picture No. 8).




USDA/OIG-Audit No. 33001-05-Hy                                                                   26
                                                             No. 8 Hazardous materials stored
                                                             inside an applicator’s personal
                                                             residence.




                    WS developed a plan to upgrade the security and storage of hazardous
                    materials, as a part of the $1.6 million dollar APHIS fiscal year 2002
                    Homeland Security Supplemental Spending Plan. WS requested and
                    received funding to install alarm systems, locking equipment safes for vehicle
                    use, locking refrigeration units, and other locked storage for firearms and
                    explosives (See picture No. 9).




                                                               No. 9 Example of proper storage
                                                               for hazardous materials inside a
                                                               locking metal safe.



                    Additional hazardous materials were kept in large plastic storage containers
                    on the beds of pickup trucks, and thus were susceptible to theft (See picture
                    No. 10).




                                                                 No. 10 Hazardous materials in
                                                                 unsecured storage inside plastic
                                                                 boxes in the bed of a pickup
                                                                 truck.




USDA/OIG-Audit No. 33001-05-Hy                                                                 27
                                   In Nebraska, we observed Fumitoxin stored inside the cab of a pickup truck,
                                   a violation of a State storage requirement,12 where fumes could build up,
                                   jeopardizing the health of anyone who might come into contact with the
                                   truck.

                                   Agency officials advised that WS installed truck boxes during April 2003 to
                                   address conditions noted above (see picture No. 11).




                                                                                  No. 11 Example of proper
                                                                                  storage for hazardous materials
                                                                                  stored on the bed of a pickup
                                                                                  truck.




                                   As of January 2004, we were advised that storage deficiencies in the four
                                   States were corrected.

Recommendation No. 9

                                   Develop a comprehensive plan for the storage of hazardous materials,
                                   including storage on private property.

                                   Agency Response.

                                   WS Directive 2.401 was revised and implemented on February 17, 2004, to
                                   address storage of hazardous materials, including storage on private property.

                                   OIG Position.

                                   We agree with the management decision for this recommendation. To
                                   achieve final action, APHIS should provide OCFO with documentation of the
                                   implementation of the revised storage procedures set forth in Directive 2.401.




12
     Nebraska Core Manual , Applying Pesticides Correctly, Chapter 11, undated.



USDA/OIG-Audit No. 33001-05-Hy                                                                                28
Recommendation No. 10

                    Conduct an inspection to determine, within all States storing hazardous
                    pesticides and controlled drugs, which storage locations need improvement.

                    Agency Response.

                    In FYs 2003 and 2004, APHIS Physical Security Specialists, conducted over
                    100 security assessments of WS work sites and identified needed
                    improvements. As those needs were identified, funds were made available to
                    implement those improvements. In addition, WS will conduct inspections of
                    all storage locations during State Program Evaluations, annual inspections,
                    and spot checks in FY 2004 to determine if any storage locations need
                    improvement during the year. WS completed a telephone survey of all States
                    to further identify needed improvements to storage locations and sites. On
                    June 1, WS submitted a request for surplus Homeland Security funds to effect
                    additional needed improvements to storage locations of hazardous materials
                    and controlled drugs. As funding becomes available, procurement of
                    identified equipment needs and identified improvements will be addressed.

                    OIG Position.

                    We agree with the management decision for this recommendation. To
                    achieve final action, APHIS should provide OCFO with documentation to
                    show that all storage locations have been inspected.

Recommendation No. 11

                    Improve all substandard storage locations to ensure safe and secure storage of
                    hazardous pesticides and controlled drugs.

                    Agency Response.

                    Once storage needs are identified and funding becomes available, as part of
                    the process described in the Agency Response section of Recommendation
                    No. 10, the needs of these identified locations will be addressed.

                    OIG Position.

                    To reach management decision for this recommendation, APHIS should
                    provide us with details of how substandard storage locations will be
                    improved and the dates by which this will be accomplished.




USDA/OIG-Audit No. 33001-05-Hy                                                                 29
Recommendation No. 12

                    Revise ADC Directive 2.401 to require the use of WS approved storage
                    equipment in State and district offices, in private vehicles, and in private
                    residences. Require access to restricted hazardous pesticides and drugs to be
                    limited to WS authorized personnel.

                    Agency Response.

                    WS Directive 2.401 was revised and implemented on February 17, 2004.
                    This recommendation has been completed.

                    OIG Position.

                    We agree with the management decision for this recommendation. To
                    achieve final action, APHIS should provide OCFO with documentation that
                    access to restricted hazardous pesticides and drugs has been limited to WS
                    authorized personnel.



Finding 3           Safety and Field Inspections to Address Security of Storage of
                    Hazardous Materials Inventories

                    The WS system of safety and field inspections does not provide reasonable
                    assurance that hazards associated with materials used in WS programs would
                    be identified and corrected in a timely manner. Several problems were noted
                    with the inspection process. Inspection questionnaires did not address
                    security and storage, and inspections were not used to assess high-risk issues,
                    such as hazardous materials stored on private property. Further, inspections
                    were often not completed timely or by personnel independent to the site
                    under review. Shortcomings in the agency’s safety and field inspection
                    review process persisted, because the agency did not develop a
                    comprehensive plan to assess the reliability of hazardous material
                    inventories, the adequacy of hazardous material storage, or the degree of
                    compliance with established procedures for management control over
                    inventory. As a result, the risk that poisons and drugs could be diverted
                    without detection is greatly increased.

                    Safety and Health Inspections, conducted in accordance with the APHIS
                    Safety and Health Manual, dated February 27, 1998, did not assess whether
                    hazardous material inventories were safeguarded against unauthorized access,
                    and did not address the storage of such material on applicators’ private
                    property or in private vehicles. To conduct Safety Inspections, APHIS
                    personnel are required to use the APHIS Form 256-5 Checklist, “APHIS
                    Safety Inspection Checklist, Hazardous Chemical Storage and Waste


USDA/OIG-Audit No. 33001-05-Hy                                                                  30
                    Disposal.” The checklist helps identify unsafe and unhealthy conditions in
                    the surrounding environment. In low-risk workplaces, inspections are
                    conducted at least annually, while more frequent inspections are required in
                    high-risk workplaces, defined by APHIS Form 256-5 as laboratories,
                    pesticide and explosive storage areas, maintenance shops, and other areas
                    involving hazardous chemicals and waste. Based on this requirement, WS
                    hazardous pesticide and controlled drug storage locations must be considered
                    to be at high-risk, and should receive a minimum of two Safety Inspections
                    each year.

                    There are no APHIS directives requiring the application of a consistent
                    process or set of standards in the conduct of Field Inspections. During our
                    review in New Mexico and Texas, district supervisors stated that they often
                    addressed storage and security during their field inspections. However, we
                    noted that only one of four district supervisors provided additional comments
                    concerning security and storage of hazardous materials on the Field
                    Inspection reports.

                    The APHIS Safety and Health Manual does not provide inspection criteria for
                    the storage of hazardous materials on private property. The WS Deputy
                    Administrator, along with the Arizona, Nebraska, New Mexico, and Texas
                    State Directors and District Supervisors interpreted the manual to define high
                    hazard workplaces to include State and district offices, or property leased by
                    the Federal government, but not private property and vehicles used by WS
                    licensed applicators storing Federally-owned hazardous materials. Thus,
                    inspections have not been performed for these areas.

                    There are no directives for the uniform conduct of Field Inspections, but in
                    New Mexico and Texas, Field Inspections were used for reviews of
                    applications (ranches or farms) on which hazardous pesticides and control
                    equipment have been placed. WS district supervisors state that they review
                    the security of hazardous materials during the performance of each Field
                    Inspection, and that these inspections would be the appropriate place to
                    document the review of storage on private property.

                    WS had no system of management control in place to ensure timely
                    identification of overdue and incomplete inspections. As a result, two of nine
                    storage facilities in the College Station and Canyon Districts of Texas did not
                    receive Safety Inspections during the period of our review, as is required by
                    the APHIS Safety and Health Manual. Restricted pesticides stored in the
                    two facilities included:


                    --Sodium cyanide M-44 capsules
                    --Zinc phosphide (ZP) concentrate
                    --ZP rodent bait, and

USDA/OIG-Audit No. 33001-05-Hy                                                                  31
                    --Beuthanasia and Ketaset/Xylazine

                    Seven of the nine storage facilities had Safety Inspections that were
                    performed by individuals who could not prepare an independent assessment
                    as they were also responsible for the maintenance and operation of the
                    facilities. Four of the seven facilities received incomplete inspections, as the
                    district supervisor did not complete Part A, “Hazardous Chemical Storage,” of
                    the APHIS 256-5 Checklist.

                    Failure to ensure timely identification of overdue and incomplete inspections
                    had been reported in a prior audit, but corrective actions taken by WS have
                    proven to be insufficient. Audit Report No. 33002-01-Hy, “Animal Damage
                    Control Over Hazardous Materials,” dated June 1996, contained a
                    recommendation that WS conduct safety inspections at least annually at each
                    ADC facility, and ensure that the reports were timely submitted to WS HQ
                    for appropriate action. WS agreed with our recommendation, and stated that
                    steps were taken to ensure that inspections were done annually and that
                    reports were submitted to WS HQ. Although management decision was
                    previously reached, our observations, as part of this review, demonstrate that
                    the condition persists.

Recommendation No. 13

                    Revise WS Directive 2.401, Pesticide Use, to: (1) supplement the review of
                    central storage/distribution facilities through the APHIS 256-5 process, to
                    include an assessment of whether pesticides are stored in a locked and secure
                    manner, and access is appropriately limited, and (2) require at least one
                    annual inspection to be completed by a party independent of the storage
                    facility, for central storage/distribution and residential storage sites.

                    Agency Response.

                    Section 2.3 in Chapter 2 of the APHIS Safety and Health Manual addresses
                    the frequency of safety and health inspections for all APHIS work sites,
                    including those where pesticides are not stored. Since these policy guidelines
                    are structured for all APHIS programs, not just WS, they represent the
                    minimal agency safety and health requirements for a wide diversity of low
                    and high hazard work sites covering a broad spectrum of program areas. The
                    individual APHIS programs supplement APHIS policy with their own policy
                    directives to more specifically address their unique program needs.

                    WS met with the APHIS Safety, Health, and Employee Wellness Branch
                    (SHEB), and discussed OIG Recommendation No. 13 on May 17, 2004.
                    SHEB and WS agree that:




USDA/OIG-Audit No. 33001-05-Hy                                                                   32
                    •   SHEB will consider redefining hazardous chemicals including pesticides
                        and I&E drugs covered by the APHIS Safety Inspection Checklist
                        (Hazardous Chemical Storage, Explosives Storage, and Waste Disposal),
                        APHIS Form 256-5. SHEB is currently working with WS to revise
                        APHIS Form 256-5 to include an assessment of whether pesticides and
                        controlled drugs are stored in locked containers to limit access and
                        increase security.

                    •   The definition of a hazardous workplace in the APHIS Safety and Health
                        Manual is adequate and appropriate. The Occupational Safety and Health
                        Administration (OSHA) definition of a hazardous workplace was adopted
                        by APHIS and is used in the Manual. As written, Section 2.3 clearly
                        stipulates that pesticide storage areas are classified as high-hazard
                        workplaces requiring a minimum of two inspections annually.

                    •   Inspection criteria of hazardous pesticide and drug storage at private
                        residences and in personal vehicles are not applicable APHIS-wide and
                        should be addressed in a WS policy directive. WS has revised
                        Directive 2.401, which includes inspection requirements for all
                        pesticide/drug storage sites.

                    APHIS follows OSHA standards and guidelines in conducting its safety and
                    health program inspections. WS will provide periodic independent spot
                    inspections conducted by State program, Regional, and Headquarters
                    representatives not associated with the individual hazardous materials and
                    controlled drugs storage locations, per WS Directive 2.401.

                    OIG Position.

                    We agree with APHIS’ proposed action for this recommendation. To reach
                    management decision APHIS should provide the date by which the agency
                    will revise APHIS Form 256-5, as noted above.




USDA/OIG-Audit No. 33001-05-Hy                                                             33
Scope and Methodology
                    The audit was conducted in accordance with Generally Accepted
                    Government Auditing Standards. The audit covered June 2000 through
                    February 2003 activity regarding the storage and accountability of hazardous
                    materials. We considered additional information provided by WS officials
                    concerning activities occurring through March 2004, as warranted.

                    Fieldwork was performed at the WS National Office in Riverdale, Maryland;
                    the WS State offices in Phoenix, Arizona; Lincoln, Nebraska; Albuquerque,
                    New Mexico; San Antonio, Texas; and the WS District offices in Nelson,
                    Nebraska; Albuquerque and Las Cruces, New Mexico; College Station and
                    Amarillo, Texas; and PSD in Idaho.

                    This report combines the results of Audit No. 33001-04-Hy, “Survey of
                    APHIS Wildlife Service Controls Over Hazardous Materials Inventory” and
                    Audit No. 33001-05-Hy, “APHIS WS Controls Over Hazardous Materials
                    Inventory.”

                    In February 2001, OIG initiated a survey of WS controls over hazardous
                    materials inventory to determine whether there were any management control
                    issues requiring additional OIG audit attention. During the survey phase of
                    this audit, the OIG team visited eight inventory locations in two States,
                    Arizona and Nebraska, and the PSD in Idaho, where pesticides are
                    manufactured and bulk supplies are stored. The team looked at the records
                    used to account for the materials inventories. The survey produced
                    significant findings and recommendations that were included in a
                    Management Alert Memorandum, issued on October 23, 2001. The
                    Management Alert recommended that WS establish management control and
                    accountability over the hazardous pesticides and controlled drugs used in its
                    wildlife management programs.

                    In order to evaluate how well the State programs implemented the
                    management alert recommendations, we conducted a followup review (Audit
                    No. 33001-05-Hy) by selecting two States with significant hazardous
                    pesticide or drug use. The States of New Mexico and Texas represented
                    38 percent and 5 percent of the WS fiscal year 2000 pesticide and drug usage.
                    As a part of the followup audit work, the OIG team visited two of three
                    district offices, and 18 applicators in New Mexico. The applicator sites
                    visited included Bernalillo, McKinley, Sandoval, Rio Arriba, Taos, Harding,
                    San Miguel, Quay, Guadalupe, Torrance, Dona Ana, and Socorro Counties.
                    In Texas, we visited two of nine District warehouses, and 36 applicators. We
                    conducted applicator site visits in Comal, Jefferson, Liberty, Leon, Hays,
                    Williamson, Victoria, Chambers, Guadalupe, Matagorda, Brazoria, Angelina,
                    Lee, Harris, Colorado, Montgomery, Travis, Brazos, Nolan, Motley, Mitchell,


USDA/OIG-Audit No. 33001-05-Hy                                                                34
                    Borden, Kent, Hale, Gray, and Scurry Counties. Audit fieldwork in New
                    Mexico and Texas was conducted from April 2002 to August 2002.

                    We conducted our audit by gaining an understanding of the inventory
                    systems in place at the New Mexico and Texas State offices. Based on
                    hazardous materials use activity, we judgmentally selected four WS District
                    offices in New Mexico and Texas for review. Within each of those districts,
                    we reviewed perpetual inventories, invoices, usage records, sales records,
                    transfers and disposal records, and the storage and security of hazardous
                    materials for 54 applicators. APHIS employees, who provided insight into
                    established practices, accompanied us on many of our reviews.

                    Through our observations of inventory, we determined whether lethal drugs
                    and restricted hazardous pesticides were accounted for.               Through
                    observations of storage facilities and interviews with State, district, and
                    applicator personnel, we determined whether 52 storage facilities were
                    adequately secured. In New Mexico we observed 19 storage facilities, and in
                    Texas we observed 33 storage facilities. We completed 59 inventory
                    reconciliations, to include 39 in Texas and 20 in New Mexico. In New
                    Mexico and Texas we also judgmentally selected M-44 cyanide capsules
                    placed in the field based on a Management Information System report and
                    performed inventory reconciliation analyses in order to assess the accuracy of
                    the reported inventory data.

                    We conducted interviews at State Departments of Agriculture and reviewed
                    records to determine if WS applicators were licensed and whether pesticide
                    sales were made to valid pesticide license-holders. As a part of our review of
                    storage facilities, we reviewed State storage requirements for restricted use
                    pesticides.




USDA/OIG-Audit No. 33001-05-Hy                                                                 35
Exhibit A - Uses and Potential Hazards of Selected Pesticides and Drugs
                                                                                             Page 1 of 2

Pesticides are toxic and can cause injury, if not properly used. The toxicity of the active ingredient(s)
and the degree of exposure determines how hazardous a pesticide is to humans or animals. Most
pesticides can cause severe illness or death. Eating or drinking the product causes many accidental
pesticide deaths. Death or injury can also occur through inhalation or exposure to the skin. Details on
specific uses of these materials and their potential hazards follow.

PESTICIDES

Avitrol
A lethal method of control for birds. EPA restrictions apply. If misapplied, it can cause allergic
reactions in humans and if spilled, it can cause contamination in lakes, streams, and sewers.

M-44
A lethal method of control for coyotes, red and gray foxes, and feral dogs that prey on livestock,
poultry, and endangered species. EPA restrictions apply. Contains sodium cyanide and is poisonous.
If misapplied, it can be dangerous to domestic animals, wildlife, and can contaminate water supplies.

.5% Strychnine
A lethal method of control for rodent populations, particularly gophers, as it is for use with burrow
builders. EPA restrictions apply. Contains strychnine and other ingredients that are poisonous. If it is
is applied, it can be dangerous to domestic animals and wildlife, and it can contaminate water supplies.

DRC-1339
A lethal method of control for predators of newborn livestock or eggs, specifically ravens and crows.
EPA restrictions apply. Contains chloro-p-toluuidine hydrochloride and is poisonous. If misapplied, it
can be hazardous to domestic animals and is toxic to birds and fish.

Fumitoxin Fumigant
A lethal method of control for insects and rodents. It can be used to control wax moth in stored
beehives, Africanized bees, and diseased bees. EPA restrictions apply. Contains aluminum phosphide
and is poisonous. If misapplied, it can kill wildlife.

Zinc Phosphide Concentrate
A lethal method of control for mice, rats, and other rodents. EPA restrictions apply. Contains zinc
phosphide and is poisonous. If misapplied, can be hazardous to domestic animals and wildlife, and can
contaminate water supplies.




USDA/OIG-Audit No. 33001-05-Hy                                                                        36
                                                                                           Page 2 of 2

Zinc Phosphide Oats
A lethal method of control for prairie dogs and ground squirrels in selected States. EPA restrictions
apply. Contains zinc phosphide. If misapplied, it can be hazardous to domestic animals and wildlife
and can contaminate water supplies.

Zinc Phosphide Pellets
A lethal method of control for rodents. EPA restrictions apply. Contains zinc phosphide. If
misapplied, it can be hazardous to domestic animals and wildlife, and can contaminate water supplies.

DRUGS

Beuthanasia
A lethal method of control for skunks. Skunks are immobilized then euthanized. DEA and FDA
restrictions apply. Contains sodium pentobarbital and can be used to euthanize all species and sizes of
animals.

Telezol
An injectable anesthetic drug used on dogs and cats. DEA restrictions apply. Contains tiletamine
hydrochloride, zolazepam hydrochloride, and mannitol. The toxicity of this drug has not been fully
investigated.

Alpha-Chloralose
This Investigational New Animal Drug (INAD) is a non-lethal method of immobilization of nuisance
birds for relocation. It is a specific-use drug regulated by FDA. This INAD may be fatal if inhaled,
swallowed, or absorbed through the skin.




USDA/OIG-Audit No. 33001-05-Hy                                                                      37
Exhibit B – Final Results of Physical Inventory Reconciliation


                                   NEBRASKA

                  Pesticide/Drug           Amount Unaccounted For

          M-44 Cyanide                 2,419 capsules

          .5 percent Strychnine        60 pounds

          DRC – 1339                   908 grams

          Zinc Phosphate Rodent Bait   23 pounds

          Large Gas Cartridges         29 cartridges

          Fumitoxin Fumigant           38,850 tablets

          Beuthanaisia                 50 milliters




USDA/OIG-Audit No. 33001-05-Hy                                      38
Exhibit C – Agency Response
                                 Page 1 of 7
                                 Attachment




USDA/OIG-Audit No. 33001-05-Hy           39
                                 Page 2 of 7




USDA/OIG-Audit No. 33001-05-Hy           40
                                 Page 3 of 7




USDA/OIG-Audit No. 33001-05-Hy           41
                                 Page 4 of 7




USDA/OIG-Audit No. 33001-05-Hy           42
                                 Page 5 of 7




USDA/OIG-Audit No. 33001-05-Hy           43
                                 Page 6 of 7




USDA/OIG-Audit No. 33001-05-Hy           44
                                 Page 7 of 7




USDA/OIG-Audit No. 33001-05-Hy           45
